<html>
<title> - THE CHEMICAL FACILITY ANTI-TERRORISM STANDARDS PROGRAM: A PROGRESS REPORT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



  THE CHEMICAL FACILITY ANTI-TERRORISM STANDARDS PROGRAM: A PROGRESS 
                                 REPORT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2012

                               __________

                           Serial No. 112-172






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-834 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan (ex 
BILL CASSIDY, Louisiana                  officio)
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)





                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     8
    Prepared statement...........................................     9
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................   102

                               Witnesses

Rand Beers, Under Secretary, National Protection and Programs 
  Directorate, Department of Homeland Security \1\
    Prepared statement \2\.......................................    12
    Answers to submitted questions...............................   104
David Wulf, Director, Infrastructure Security Compliance 
  Division, Office of Infrastructure Protection, National 
  Protection and Programs Directorate, Department of Homeland 
  Security \1\
    Prepared statement \2\.......................................    12
Cathleen A. Berrick, Managing Director, Homeland Security and 
  Justice, Government Accountability Office \1\
    Prepared statement...........................................    20
    Answers to submitted questions...............................   139
Timothy J. Scott, Chief Security Officer and Corporate Director, 
  Emergency Services and Security, The Dow Chemical Company......    57
    Prepared statement...........................................    59
Matthew J. Leary, Corporate EHS&S Manager, Pilot Chemical Company    65
    Prepared statement...........................................    67
Anna Fendley, Health, Safety, and Environment Department, United 
  Steelworkers...................................................    75
    Prepared statement...........................................    77
Paul Orum, Blue Green Chemical Security Coalition, Independent 
  Counsel to the Center for American Progress....................    80
    Prepared statement...........................................    82

                           Submitted Material

Letter, dated September 10, 2012, from Charles T. Drevna, 
  President, American Fuel & Petrochemical Manufacturers, to Mr. 
  Shimkus and Mr. Green, submitted by Mr. Green..................    97

----------
\1\ Mr. Beers, Mr. Wulf, and Ms. Berrick did not present oral 
  statements.
\2\ Mr. Beers and Mr. Wulf submitted a joint prepared statement.

 
  THE CHEMICAL FACILITY ANTI-TERRORISM STANDARDS PROGRAM: A PROGRESS 
                                 REPORT

                              ----------                              


                      TUESDAY, SEPTEMBER 11, 2012

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Murphy, Latta, 
Cassidy, Gardner, Barton, Upton (ex officio), Green, 
Butterfield, and Barrow.
    Also present: Representative Pompeo.
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Sean Bonyun, Communications Director; 
Matt Bravo, Professional Staff Member; Jerry Couri, Senior 
Environmental Policy Advisor; David McCarthy, Chief Counsel, 
Environment and the Economy; Andrew Powaleny, Deputy Press 
Secretary; Chris Sarley, Policy Coordinator, Environment and 
the Economy; Brett Scott, Staff Assistant; Jacqueline Cohen, 
Democratic Counsel; Greg Dotson, Democratic Staff Director, 
Environment and the Economy; Elizabeth Letter, Democratic 
Assistant Press Secretary; Karen Lightfoot, Democratic 
Communications Director and Senior Policy Advisor; and Stephen 
Salsbury, Democratic Staff Assistant.
    Mr. Shimkus. The subcommittee will come to order. And we 
would ask our guests to come on in and sit down and close the 
doors, and we will welcome our first panel.
    I have an opening statement which I will read in part and 
hopefully then get unanimous consent to submit for the record.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I have been thinking about CFATS for a long time, since the 
last hearing, and how long it has taken and the past problems, 
et cetera, et cetera, et cetera. We all know the story.
    You know, the Illinois State flag has a banner underneath 
it that says ``State sovereignty, national unity.'' And I think 
part of our debate is, here at the national level, are States 
still sovereign? And how do we address national unity issues 
like homeland security and the like? And I think this is a 
perfect program that, if done properly, we can move in a good 
direction.
    What do we need on security? As many of you know, I have a 
military background. I served in West Germany during the old 
days. I understand security, I understand perimeters, I 
understand threats, not as well as those who are involved more 
deeply today.
    But we want folks to have perimeter security. We would like 
the national government to provide assistance in identifying 
insecure facilities or placement of chemicals and operations 
and stuff. As I said, assistance, not the threats, not the 
mandates.
    And then we do need to address the personal assurance 
issues about who is involved in working around what type of 
materials.
    I think that really encompasses my view of CFATS. How can 
we work together so that we are all better off? I think we 
still have a ways to go. I know we are making progress since 
the last hearing, but I think there are still issues to 
address.
    And I know that there are some issues about why today, and 
was this planned, and was there politics behind today. At least 
that is what the rumors were from staff. And, first of all, no, 
this is the last full week here. We have to get through this.
    But the second point I would say, how do you best honor 
those on a day like today than to address the threats of today? 
I think we do more, if we are really concerned about the 
threats posed, to continue to address our issues of safety and 
security on today. I think that is how you better honor folks, 
by moving forward.
    So whatever debates and statements on that are, I don't 
really have a dog in that fight, and I could really care less 
what people think on that.
    After the last hearing on this issue, I know testimony is 
going to be that we have implemented--or DHS has implemented 59 
of its 95 corrective actions. We will want to ask, where we are 
at on the other 36?
    I will address questions on the permanent branch chiefs. I 
do think having people in positions for a period of time is 
probably an important thing for continuity and for process. I 
have a national forest in my congressional district. My 
relationships with the manager and the forest and all the 
stakeholders are much better when the same person is there over 
a couple years versus swapping them out every 6 months or every 
year. And I think that is true probably at any Federal agency. 
My staffers who deal with constituent service are much better 
having continued to do that work over years versus having them 
doing different things.
    We need to also address how do we move forward in a more 
transparent and open system and process. I think that is an 
issue, also, of the last hearing.
    So I look forward to the hearing. I think it is very, very 
important.
    Just for my colleagues who have shown up, Mr. Beers has 
agreed to waive his opening statement so that we can move 
questions after we get through ours because of the time 
constraints with the ceremony and your early departure. And we 
appreciate that.
    So, with that, I am going to yield back the balance of my 
time and yield to the ranking member, Mr. Green, for 5 minutes.
    [The prepared statement of Mr. Shimkus follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing today. And I don't know if it is special timing, but I 
think the reason we have chemical security is because of 9/11 
and the concern we have about our major industrial facilities.
    I want to welcome both of our panels.
    This important issue--I am glad to see our subcommittee 
continue oversight of this critical program. I represent the 
Houston Ship Channel area, which is the largest petrochemical 
complex in the country. I cannot stress how important the 
success of the CFATS program is to my constituents who are the 
employees and live in the communities that surround the 
facilities. They deserve the best security standards possible 
to prevent acts of terrorism on U.S. Soil.
    Secretary Beers, you did not testify under the best 
circumstances last February, but I hear that you have some 
positive things to report this time around. And I appreciate 
that things are starting to move, but we cannot ignore that it 
has been 6 years since this program was enacted and we are 
still not close to being there yet. It is time to get these 
plants inspected and approved, and I hope that you have a 
deadline for doing so to report to us this morning.
    That said, it is Congress' job to make sure you have the 
resources to do this. I understand that the House appropriators 
significantly cut your budget. With movement finally happening 
in the last few months, now is not the time to limit resources. 
And I encourage my colleagues not to set us back now.
    I want to end by talking about a subject that is of prime 
importance to me, and that is personnel surety. Developing and 
implementing a personnel surety program that relies on existing 
government credential systems, like the TWIC, would reduce a 
burden on DHS and the workers at these facilities and the 
industry.
    Secretary Beers, last year I asked if the Department 
intended to integrate TWIC in the personnel security program. 
You gave me a positive response, and yet the proposal you sent 
to the OMB did not make it clear that TWIC is an acceptable 
background check. I am pleased that you rescinded the proposal 
in July, but understand that you will resubmit a revised 
personnel security program in the coming months. I hope today 
that you will definitely commit to allowing the Transport 
Worker Identification Card, or TWIC, to be used without caveats 
for workers or industries.
    We will soon be reissuing thousands and thousands of TWIC 
cards because they are expiring, including mine expires in June 
of next year. I have spent so much time on plant sites in my 
district. At the Port of Houston, we have over 250,000 
employees who use a TWIC card every day to get to work--
250,000. Multiply that across the country. There is no reason 
to reinvent the wheel. We need to fix TWIC and use it as the 
standard card.
    I regret Congress has still not passed a CFATS 
authorization. I still believe that a lot of problems with the 
CFATS program stems directly from not having a permanent 
authorization with direction from Congress. Chemical facilities 
security is extremely important to the protection of public 
health and safety throughout the U.S., particularly in our 
congressional district. There is no reason we should not act on 
this issue.
    And I look forward to the testimony of our witnesses. And 
thank you, Mr. Chairman. I yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    The chair recognizes the chairman of the full committee, 
Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. I am going to ask 
that my full statement be made part of the record.
    Mr. Shimkus. Without objection.
    Mr. Upton. I just want to say, 6 months ago we authorized 
CFATS. We were very conscious that the next terrorism incursion 
could come from within a chemical plant instead of on board an 
airplane.
    And those of us who were here in DC. 11 years ago remember 
well every single minute of that day. And I, for one, made a 
promise that we should do everything that we can to make sure 
that that moment doesn't occur again in this Nation. We have to 
honor the victims and their loved ones by working together to 
ensure that such an attack can never happen again. And I 
support Chairman Shimkus and all that he is doing to make sure 
that, in fact, we are better safeguarded as a nation.
    And I yield back my time.
    [The prepared statement of Mr. Upton follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. The gentleman yields back his time.
    With that, seeing no other Members here authorized for an 
opening statement, the chair now recognizes himself.
    First of all, as stated earlier, both Mr. Beers and Ms. 
Berrick, both have agreed to waive their opening statements so 
we can go right to questions. We appreciate that.
    [The prepared statement of Mr. Beers and Mr. Wulf and the 
prepared statement of Ms. Berrick follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



QUESTIONING OF RAND BEERS, UNDER SECRETARY, NATIONAL PROTECTION 
  AND PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY, 
 ACCOMPANIED BY DAVID WULF, DIRECTOR, INFRASTRUCTURE SECURITY 
   COMPLIANCE DIVISION, OFFICE OF INFRASTRUCTURE PROTECTION, 
  NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, DEPARTMENT OF 
HOMELAND SECURITY; AND CATHLEEN A. BERRICK, MANAGING DIRECTOR, 
HOMELAND SECURITY AND JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Shimkus. And so I will start.
    Mr. Beers, it is my understanding from your Web site that 
you have one facility that is approved under the program. And 
of that one, what is its plan on personnel assurance?
    Mr. Beers. Sir, we have now two plans that have been 
approved. Those approvals are conditional pending the 
completion of the response to Risk-Based Performance Standard 
12, which is the personnel surety standard. So we are working 
actively now to reintroduce the request to OMB for the 
collection program that we need to move forward.
    But let me say three things about that.
    Mr. Shimkus. Quickly.
    Mr. Beers. First, Ranking Member Green, TWIC will be 
included in that.
    We will also have the opportunity for entire companies and 
service providers to be able to submit for their entire 
companies. And they will be authorized to go to any plant that 
they go to that is covered by this program.
    And, thirdly, we are going to work this program heavily 
with industry to make sure that we move as quickly as possible, 
but recognizing their needs, as well.
    Mr. Shimkus. You understand my concern. If we have two that 
are approved and we still don't have the personnel assurance 
issue, it is hard for me to understand how we say it is 
conditionally approved without the whole ball game--a standard 
being reached across the board. I know we want to send positive 
signals, but we don't want to send false signals, either, that 
we are better off and we have a full program.
    Do you want to respond, Mr. Beers?
    Mr. Beers. Sir, I totally agree with you that we don't want 
to leave any security requirement not fulfilled. But it was our 
view that the conditional authorization process, because of the 
slowness with which we were getting the necessary personnel 
surety questions answered, meant that we believe that we ought 
to move forward with the conditional authorization and catch up 
as quickly as possible with the personnel assurance.
    Mr. Shimkus. OK.
    Let me move to the--the last hearing, we also had an issue 
because all facilities were placed into the same tier. So we 
had a big debate about, how do we get risk tiering, and what is 
the methodology, and let's make sure we have the proper people 
doing that.
    And my understanding is, risk tiering is a formula; is that 
correct?
    Mr. Beers. Yes, sir.
    Mr. Shimkus. We have a formula to do that. And what 
comprises the formula?
    Mr. Beers. Sir, there are a series of factors that are 
involved in that formula. First of all, we----
    Mr. Shimkus. We have to go quickly.
    Mr. Beers. The----
    Mr. Shimkus. How about if I just help out here? Threat 
times vulnerability times consequence is the risk factor, 
correct?
    Mr. Beers. That is the essential equation, and then each of 
those elements has sub-elements within it.
    Mr. Shimkus. So let me ask about, how do you--I don't claim 
to be a great mathematician,but I understand formulas and I 
understand constants and I understand variables. One of our 
concerns is that vulnerability you have as a constant versus a 
variable, and that concerns us in the formula.
    In fact, I would like to go to the GAO. Did you know that, 
in this formula, that for that issue of vulnerability, that 
vulnerability is listed as a constant and not a variable?
    Ms. Berrick. We do know that, Chairman, and we are looking 
at that right now.
    I think the specifics of this are for official use only. 
But to talk about this at an unclassified level, we found a 
similar--we look at how DHS calculates risk scores across the 
Department as a part of a number of our reviews. We found a 
similar problem in how they calculate risk for a major grant 
program and, in fact, recommended that they not hold 
vulnerability constant. DHS implemented that recommendation in 
the last grant cycle and varied it.
    So we have cited that as a concern in past work.
    Mr. Shimkus. And the point being, two similar facilities--
one in downtown Manhattan; one outside Olney, Illinois--two 
very different risk portfolios. And so that is why we would 
argue that there should be a variable aspect on that formula.
    And from last time, how do you move a facility through the 
site security process, approve SSPs, inspect, et cetera, when 
there is no personnel surety plan that assures a facility 
manager that no one in the plant is on the terrorist watch 
list? It is kind of going back to the previous question.
    Mr. Beers. Sir, there is more to the site security plan 
than simply the individuals involved, which is not to say that 
that is not a very significant and important part. So the 
question is, what are the other security provisions within the 
plan that we and they can record and review and inspect?
    Mr. Shimkus. Thank you. My time is expired, but I want to 
keep this going, and I appreciate that response.
    I would just say that, in chemical facilities, probably the 
biggest threat would be someone internally being able to get 
inside the facility and know the facility. So of all of the 
threats, that is probably the biggest one, I would venture to 
guess.
    So, with that, I would yield to the ranking member, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Secretary Beers, as of 2 days ago, the Tier 1 site plans 
reviewed or authorized were 73, and 2 that were approved.
    What does ``conditionally authorized'' mean? Does that mean 
that they can continue to operate? Or is there----
    Mr. Beers. That means that they can move forward with 
implementation of the site security plan elements that were 
approved, and that we come back when we have a personnel surety 
program that we have agreed on and implement those.
    But let me just make one point with respect to personnel 
surety. It is not that this government has been quiet or 
inattentive to looking at insider threats within this area. 
FBI, which we work in partnership with, has a very robust 
program of looking for threats within the country and ensuring 
that they are being inspected. This program would be an 
additional program to the excellent work that the FBI is doing 
on a daily basis.
    Mr. Green. How long does it take to get a plan from 
conditionally approved to approved?
    Mr. Beers. That is going to depend, sir, on when the 
personnel surety risk-based performance standards--excuse me--
when we agree on what the standards are that they are supposed 
to meet.
    So, right now, we are looking at publishing the request for 
information in the next 30 days and collecting that information 
over a 60-day period, and then going forward with our proposal 
to OMB.
    Mr. Green. You mentioned that as of July the 16th, in your 
statement, ISCD has resumed authorization inspections on Tier 1 
facilities. How many inspections, on the average, are you 
conducting a month?
    Mr. Beers. David, do you want to answer that question?
    Mr. Wulf. We have a total of about 10 inspections scheduled 
during the month of September. We anticipate continuing to 
increase the pace of inspections going forward. So I think, you 
know, you will see hundreds of inspections occurring over the 
course of the next year.
    Mr. Green. OK. At that rate, how long do you think it will 
take to get to all those sites that are awaiting inspection? A 
year?
    Mr. Wulf. Well, the sites that are awaiting inspection are 
those that have received their authorization, and right now 
those are 73 sites. Several of those have already been 
inspected. We have conducted a total of 19 authorization 
inspections to this point. The remainder of those 73 and 
additional ones that we anticipate authorizing over the next 
months will certainly be inspected in the next year.
    Mr. Green. And I would hope folks are moving into the 
conditional authorization, so that group will be expanding, I 
assume.
    Mr. Wulf. Yes, the numbers of finally approved SSPs will 
certainly be, you know, continuing to grow.
    Mr. Green. Given the current status of the SSP tool, has 
DHS explored how to better use the authority, use alternative 
security plans to help expedite the CFATS approval process?
    Mr. Beers. Yes, sir. That is an important element of our 
efforts. We have been working with the American Chemistry 
Council. We have run a pilot program with an alternative 
security plan with them and are hoping to issue some guidance 
for the members of that council to be able to use the 
alternative security plan. We are also working with 
agricultural industries, looking at the same possibility.
    Mr. Green. OK. Well, I appreciate you being willing to use 
similar credential programs like TWIC. The Federal Government 
really doesn't need to reinvent the wheel. TWIC is not perfect, 
believe me, as I learned when it was rolled out and we will see 
as we do the reissuing of them. But we need to learn from that 
and have one ID, whether you are on water side or on land side, 
your facility.
    The internal DHS memo leaked to the press last year 
articulated programmatic breakdowns, serious deficiencies. What 
is the timeline for the full implementation of the 91 
recommendations for improving the CFATS program?
    Mr. Beers. Sir, with respect to all 95 now of those, some 
of them are going to go on over a longer period of time, but we 
are moving as quickly as possible. We have, since we submitted 
the testimony, the written testimony with the September 4 
deadline, increased the number of items that have been 
completed.
    And, David, I don't want to speak to the precise number, 
but when would you say we would be up in the 80s?
    Mr. Wulf. I would say we will be in the 80s by the end of 
the calendar year, most likely.
    Mr. Green. OK.
    Mr. Chairman, I am out of time, and I have one question on 
the site security plan I would like to submit and hear the 
answer. And I appreciate you all for getting back to us.
    Mr. Shimkus. Thank you. Without objection.
    The chair recognizes the vice chair of the subcommittee, 
Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman.
    And thank you to our witnesses today.
    I just want to verify. So the number of site security plans 
that have been approved is two?
    Mr. Wulf. Two, sir.
    Mr. Murphy. You got the funding in 2006 to go forward on 
this; am I correct?
    Mr. Beers. Excuse me?
    Mr. Murphy. The funding came forth to start these 
inspections in 2006; is that correct? 2007? It was a few years 
ago?
    Mr. Beers. I don't know whether it came forward in--the 
authorization occurred then.
    Mr. Murphy. Authorization, OK.
    Mr. Beers. But we have not been in a position to actually 
finally approve them, really, until this summer, in part 
because of the management problems that have been revealed and 
in part because as we have gone forward with the program we 
have learned a whole lot. And the whole lot that we have 
learned has also created the appreciation that it was more 
complicated than it was originally thought to be at the 
beginning of the program.
    Mr. Murphy. So how long have you been getting the money, 
and how much money is it you have been receiving to do this, 
then?
    Mr. Beers. I believe the total amount of money that we have 
received is slightly under $500 million.
    David?
    Mr. Wulf. Yes, I think on the order of $400 million, $450 
million.
    Mr. Murphy. Wow. And we still have, what, over 4,000 plans 
to review?
    Mr. Beers. We have about 4,400 plans to review. We have 
4,433 facilities that have been designated or have preliminary 
designations as being in the high-risk category.
    Mr. Murphy. So we hope this goes better because, otherwise, 
you are at the rate of approving them all within a few 
centuries, and we wanted to help you speed that up.
    You have said that the inspectors weren't well-trained and 
there was a number of problems. How many inspectors are trained 
now?
    Mr. Beers. All the inspectors that we have. The number is 
over 100. A hundred and fourteen, I believe, is the actual 
number. And that training about doing the inspections was 
completed during the month of July.
    Mr. Murphy. And they are all qualified to do the 
inspections?
    Mr. Beers. Yes, sir.
    Mr. Murphy. How many inspectors are needed to do each plan?
    Mr. Beers. We have a planned workforce that is in--David, 
about 120-something overall?
    Mr. Wulf. Yes, yes, we do. And that will encompass ammonium 
nitrate inspections when that program comes on line.
    Mr. Murphy. But, I mean, how many people do you need for 
doing each one?
    Mr. Wulf. It varies depending on the size and scope of the 
facility, but, you know, I would say anywhere from two to 
three, four, five.
    Mr. Murphy. So I am still looking here at--you have about 
$2 million per person there to do this, and you need two or 
three to do each one. Using those kinds of numbers and those 
figures, when do you anticipate you will even reach the halfway 
point with these inspections?
    Mr. Wulf. We anticipate within the next year that we will 
have, you know, authorized, conducted inspections. And if all 
goes well with the site security plans, we will have approved 
close to 300 plans.
    Mr. Murphy. That still leaves us 3,500 or so to do. I know 
you are concerned, and we are too. I am trying to find ways we 
can help you.
    Mr. Shimkus. Would the gentleman yield for 1 second?
    Mr. Murphy. Yes.
    Mr. Shimkus. What I would weigh in is, that is why we need 
to properly tier the facilities. And that is why this debate 
that is going on about alternative security plans is very, very 
important, so that we use the plans that are already 
established out there in industry which are trying to do the 
same thing, for the most part, and work together versus against 
each other.
    Mr. Murphy. Precisely. No, no, I want to work together. I 
am just trying to find out if there are specific 
recommendations of things you need from us to facilitate that 
in moving forward. Because we know you want to be accurate, and 
we know you want to do this in a way that protects public 
safety and works with the things that industry has found.
    And so I am wondering, in the process of going through, are 
you finding ways in this that, in addition to the people that 
you have approved for the inspections, which the chairman was 
mentioning, within the industry, can facilitate that and 
actually speed up this process in a way that helps too? Is 
there something that we can learn from that?
    Mr. Beers. Sir, that is in large measure what we are about 
right now, which is to ensure that the people are trained, to 
ensure that the review process to get the plans to the 
authorization stage so that we can send out the inspectors to 
do that moves more quickly and more efficiently than it has in 
the past.
    And I think that the record since the review process to 
make the internal reviews go faster has shown an increase. I 
think that the inspection plan training has increased the 
number of inspections. So I think we are moving at a rate that 
is going to be increasing.
    But I have to say here, sir, it will not help us if the 
House Appropriations Committee appropriation level for this 
program, which cut $40 million----
    Mr. Murphy. If I might add, I know oftentimes when I am 
visiting businesses, they are very concerned that government 
seems to come in, work against them, doesn't ask them for their 
assistance. And I would like to echo what the chairman said, 
that, I mean, these are people who also care about their 
communities, their families, their workers. And I hope that you 
do talk with them and see what you can learn from so many of 
these companies because they do want to facilitate and move 
this forward.
    And I yield back. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    It is tough to argue dollars and cents when we have a track 
record of millions of dollars per individual. So I wouldn't go 
down that route, Mr. Beers.
    The chair would now recognize my colleague from North 
Carolina, Mr. Butterfield, for 5 minutes.
    Mr. Butterfield. Let me thank you very much, Mr. Chairman, 
and certainly thank the three witnesses for coming forward 
today with your testimony.
    I am going to not take up the entire 5 minutes, but I do 
want to ask Secretary Beers and possibly Mr. Wulf a very short 
question.
    I am told that the Department has a hotline for 
whistleblowers. That is what my staff tells me, that there is 
now in place a hotline for whistleblowers and that anyone can 
call that hotline with security concerns.
    Department employees have whistleblower protections, but 
what protections, if any, cover facility employees and even the 
general public? Mr. Beers, can you help me with that?
    Mr. Beers. I am going to turn to David to answer the 
question about the hotline.
    But it is certainly our view that we solicit both from 
within the Department of Homeland Security and from the private 
sector and from citizens any indication of issues that we ought 
to pay attention to.
    The protection involved there will be that we will provide 
anonymity if anonymity is requested. That is a basic policy of 
hotlines, if that is what the person wants. So if it is from an 
employee of the company, we will keep that----
    Mr. Butterfield. What about downstream at the facilities?
    Mr. Beers. Yes.
    Mr. Butterfield. The same thing with the facilities?
    Mr. Beers. Yes. I mean, insofar as they tell us. We are not 
going to reveal the names of the individuals who gave us that 
information if they want their identity protected.
    Mr. Butterfield. And the same with the general public?
    Mr. Beers. And the same for the general public, yes, sir.
    Mr. Butterfield. All right.
    Mr. Wulf. And we do maintain, as the Under Secretary noted, 
a tip line, a CFATS-focused tip line, so members of the public, 
facility personnel can call in and report concerns, can report 
information about facilities that may, you know, benefit from 
being part of the CFATS program.
    Mr. Butterfield. All right.
    More than 2,700 facilities have eliminated or reduced 
holdings of dangerouschemicals, so they are no longer 
considered high-risk facilities. How does DHS ensure those 
facilities do not increase the amount of those chemicals in 
their inventory at a later date?
    Mr. Beers. David?
    Mr. Wulf. Well, those facilities--and, you know, if I can 
mention, you know, that is one of the many successes that we 
view in the CFATS program to this point. And there is a pretty 
significant list of things that America has received for its 
investment in CFATS.
    But with regard to those facilities, having been part of 
the program, having gone through the initial Top-Screen, they 
are made aware of their obligation when they bring into the 
facility chemicals above the screening threshold quantity that 
are on the list of 322 chemicals of interest, their obligation 
to report that to us. So they are fully aware of that and, you 
know, meet those obligations. So facilities come back into the 
program, as well.
    Mr. Butterfield. OK.
    And now to the managing director: The Department of 
Homeland Security Infrastructure Security Compliance Division 
completed 21 of 94 items from its action plan between June and 
September of this year. And prior to that, the Department had 
only completed 38 items.
    Is DHS now completing the 94-item action plan at a faster 
rate than the GAO anticipated?
    Ms. Berrick. I think they are making good process on the 
action plan. They demonstrated their commitment. They are 
actively tracking it. We had some suggestions to provide some 
additional details on the plan, which they have incorporated.
    The one thing I would mention about the action plan, I 
think it is a very good first step. However, you know, to 
address these issues that were highlighted in the management 
memo is going to take leadership, sustained leadership, support 
over the long term.
    Some of these action plans are designed to develop plans 
to, you know, implement a program--for example, a framework to 
create a quality division. While that is very important, the 
actual execution of this quality division, how they oversee 
this process, is really what is going to be critical.
    So we think it is a very good first step, but it is going 
to require long-term and sustained leadership support to refine 
these actions, update them as needed, and make sure that they 
execute on the plans that they have put in place.
    Mr. Butterfield. All right.
    And I will end where I began, with Mr. Beers or Mr. Wulf. 
You mentioned that 73 facilities have authorized or have 
conditionally authorized Tier 1 security plans. Are there any 
additional steps those facilities must complete before 
inspection and approval?
    Mr. Beers. No, sir. That means that they are ready for 
inspection. The ones that haven't been authorized or 
conditionally authorized either need to provide more data or we 
need to have a better understanding of the data that they did 
provide.
    Mr. Butterfield. Do the steps vary across facilities?
    Mr. Beers. Excuse me?
    Mr. Butterfield. Do the final steps vary across the 
different facilities?
    Mr. Beers. Well, no facility is necessarily the same, so 
what they need to do in order to meet the Risk-Based 
Performance Standards may be different for each facility, which 
means that there is no automatic template, when you look at a 
response, that either it is ``yes'' or ``no.'' You have to look 
at what they actually said with respect to that particular 
performance standard and make sure that it matches what the 
performance standard lays out.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Butterfield. Thank you, Mr. Chairman.
    Mr. Shimkus. The chair now recognizes the gentleman from 
Colorado, Mr. Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman.
    And thank you to the witnesses for joining us today.
    Mr. Beers, I want to ask a couple of questions to follow up 
on a committee hearing we had February 3rd, 2012. I want to 
read the transcript from about 30 seconds' worth of our 
conversation.
    I started the conversation by asking about the Anderson 
Wulf memorandum and said, ``So the inspector general has looked 
into this?''
    And your response was, ``The inspector general has access 
to these reports, yes, sir, but this was not done by--"
    And I stated, ``Have you had conversations with the 
inspector general?''
    Mr. Beers: ``With respect to this report?''
    ``Yes.''
    Mr. Beers: ``I can't speak to that. I have not personally 
had that conversation.''
    And I followed up with, ``But he has this memorandum?''
    Your response to that was, ``As with all these kinds of 
reports, yes, they are available.''
    ``They are available, or he has them? I mean, you have sent 
it to him?''
    Your response was, ``I will have to confirm that, sir.''
    And so, Mr. Beers, to follow up with that, you never did 
get back to me or to the committee to confirm that you had 
given the Anderson memo to the inspector general, did you?
    Mr. Beers. Yes, sir.
    Mr. Gardner. You got back to us?
    Mr. Beers. I am sorry, I am not certain that we got back to 
you. But, yes, they have it.
    Mr. Gardner. OK. But I don't think you got back to me. I 
certainly never received the information. You didn't get back 
to this committee.
    But it was after this committee hearing, it was after the 
February 3rd committee hearing, when the inspector general had 
watched the broadcast of our interaction, and it was more than 
a month after it was all over the national news and 2 months 
after you received the memorandum that the IG called you to 
obtain the memorandum.Is that correct?
    Mr. Beers. We had a conversation immediately after this 
hearing, yes, sir.
    Mr. Gardner. And when did he get the report then?
    Mr. Beers. I can't say the specific day on which he got it.
    Mr. Gardner. It was 2 month after the conversation.
    And, again, you didn't give it to him right away after the 
committee hearing. After that conversation, did you give it to 
him right away? Surely you remember that.
    Mr. Beers. I did not personally give it to him. I asked my 
staff that it be given to him immediately, per the conversation 
that he and I had.
    Mr. Gardner. And staff was directed to immediately give it 
to him?
    Mr. Beers. Yes, sir.
    Mr. Gardner. And the memorandum, though, didn't go out 
until May. Is that correct?
    Mr. Beers. Sir, I don't have that information.
    Mr. Gardner. Do you have staff here that could answer that?
    Mr. Beers. David?
    Mr. Wulf. I don't believe I can answer that, sir.
    Mr. Gardner. And so, here is the problem that I have. And 
that is why I would ask you for the full story here.
    How many times have you ever communicated with either 
Richard Skinner or Charles Edwards, in their respective 
positions as inspector general at DHS or the acting inspector 
general, or anyone else from the DHS Inspector General Office 
about the CFATS program?
    Mr. Beers. I have talked to Mr. Edwards on at least, I want 
to say--I am positive that I have spoken to him on at least 
three occasions. And I could have had other conversations with 
him beyond that, but I don't recall.
    Mr. Gardner. And were those conversations started by you, 
or were they initiated by--who initiated those conversations?
    Mr. Beers. In one case, it was him. In the other cases, it 
was me.
    Mr. Gardner. And so, you know, have you discussed the 
conduct of an audit inspection or investigation of the CFATS 
program? Was that the purpose of the conversation?
    Mr. Beers. We had a conversation about that, yes.
    Mr. Gardner. And that was a conversation that you started 
or that they started?
    Mr. Beers. I believe that was one that I started.
    Mr. Gardner. And have you or anyone in NPPD, IP, or ISCD 
ever suggested that the Homeland Security inspector general 
come in and look at the problems being encountered by CFATS?
    Mr. Beers. Sir, as a result of that round of hearings, a 
Member of Congress requested the IG to come in and look at it. 
When----
    Mr. Gardner. But you never?
    Mr. Beers. When he and I had the conversation about the 
management report, I did not request that he come in and look 
at it, but I certainly said we are open to anything that you 
believe is appropriate to looking at this program.
    Mr. Gardner. And so the recommendations by--so nobody, 
again, nobody in NPPD, IP, or ISCD ever suggested that?
    Mr. Beers. To?
    Mr. Gardner. To come in and look at the problems being 
encountered by CFATS. That was all a Member of Congress that 
suggested that.
    Mr. Beers. There was a discussion in the fall of 2010 as to 
whether or not the inspector general should be invited to 
conduct a management review, which would have required us to 
pay them to hire an outside consultant to conduct that review. 
When we looked at----
    Mr. Gardner. And that was a suggestion that they had made?
    Mr. Beers. Excuse me?
    Mr. Gardner. That was a suggestion that somebody in one of 
the----
    Mr. Beers. That was a suggestion that Assistant Secretary 
Todd Keil made in a memo----
    Mr. Gardner. And so what did you do with that 
recommendation?
    Mr. Beers. Excuse me?
    Mr. Gardner. What did you do with that recommendation?
    Mr. Beers. We sat down in senior leadership, including 
Assistant Secretary Keil, and decided that we could perform 
that particular review within Office of Compliance and 
Security, which exists within NPPD but not within IP, and that 
we could do it more quickly and we could do it without an 
additional cost to the program.
    And that report was done and delivered in September of 2011 
and became part of the management review that Penny Anderson 
and David Wulf undertook. The results are in that effort.
    Mr. Gardner. So just to follow up, with this most recent 
February 3rd hearing, the revelations in the Anderson-Wulf 
memo, did anyone--I will follow up again--did anyone in NPPD, 
IP, or ISCD ever suggest to you that DHS IG come in and look at 
the problems being encountered?
    Mr. Beers. After that hearing, no.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Barrow, do you seek recognition?
    The chair now recognizes the gentleman from Ohio, Mr. 
Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman.
    And thank you very much for coming in today to testify 
again before the committee.
    Mr. Beers, let me ask, could you inform us of the misuse of 
government-owned vehicles by the Washington-based headquarters 
personnel?
    Mr. Beers. I am sorry, sir? Could you repeat----
    Mr. Latta. Could you inform us about any misuse of 
government-owned vehicles by Washington-based headquarters 
personnel?
    Mr. Beers. Sir, I do not have an indication of that kind of 
misuse. We did look at that issue.
    David, do you want to add to that?
    Mr. Wulf. There were, before Ms. Anderson and I came into 
the division, vehicles that were housed at our headquarters 
location. Before we arrived, those vehicles had been removed. 
So I don't have--we don't have--we didn't have any indication 
that the vehicles had been misused. But, you know, we believed 
their presence at headquarters was not necessary for the----
    Mr. Latta. OK. When you say ``removed,'' could you explain? 
When you say ``removed,'' were they removed to another 
government agency? What happened to them?
    Mr. Wulf. I believe--and I wasn't there at the time--that 
they were pushed out to our field force.
    Mr. Latta. OK. But were the records kept on those vehicles 
prior to that time as to where they were going, like mileage 
records, odometer statements, gas records, et cetera?
    Mr. Wulf. I don't know that.
    Mr. Latta. Is there a way to get those records?
    Mr. Beers. Sir, I want to acknowledge, that is one of the 
management problems that we discovered, that there was 
inadequate recordkeeping. And that is one of the deficiencies 
that we have corrected.
    Mr. Latta. OK. But I think what we need to have in the 
committee, though, is we should have the--if we could request 
that information. And if you have to go back and find those 
records--because, again, it would seem to me that if it is a 
government vehicle, and when you have those government vehicles 
out there, that you have the odometer statements. And, also, 
there would be gas records and things like that. They would 
have to be filled up; they would have to have some service. 
There would have to be different records out there.
    So I think it is very important for the committee to get 
that information from you all so we can start with that point, 
as to know exactly where those vehicles were and if they were 
misused. So that is one of the things we would like to do.
    And let me ask, just to follow up again--maybe you just 
mentioned it--when did you all become aware of that problem 
with those vehicles? When you said you came in and those 
vehicles were removed, when were you all aware of it?
    Mr. Beers. David, fill in if I am not precise on this.
    But my understanding is that that came out in the 
management review that was done by our Office of Compliance and 
Security. So the detail about the lack of records and oversight 
was finally reported in September of 2011, made available to 
David and Penny Anderson for incorporation in their report.
    Mr. Latta. Let me ask, was any of this turned over to the 
IG for investigation?
    Mr. Beers. No, sir, that was not turned over to the IG. The 
report itself said that there was a lack of recordkeeping but 
that there was not an indication of waste, fraud, and abuse 
associated with that. ``Not an indication''--not saying that it 
wasn't, but it was not indicated.
    Mr. Latta. OK. And, again, how many vehicles are we talking 
about in total?
    Mr. Wulf. I would have to get that back to you.
    Mr. Latta. Could we get that back from you, then? We would 
appreciate that information.
    Mr. Wulf. A relatively small number, I believe.
    Four to six vehicles?
    Mr. Beers. That is what my staff is telling me, four to six 
vehicles.
    Mr. Latta. OK.
    And, Under Secretary, you were aware of the unsatisfactory 
condition of the SSP process before you testified back in March 
of last year and in 2012. Is that correct, that you were aware 
of that?
    Mr. Beers. I was aware that we were not moving at a pace 
that we had previously told you we should be moving at, yes, 
sir. And I indicated that I was disappointed in that and that I 
had hoped that we would move more rapidly on that.
    Mr. Latta. OK. And I am sorry, did you say that you brought 
those problems and that information to the committee at that 
time?
    Mr. Beers. Sir, which hearing are we talking about now?
    Mr. Latta. The March 2011 or the February 2012 hearing?
    Mr. Beers. So, at the March 2011 hearing, I believe I 
acknowledged that we had not achieved the objectives of getting 
the site security plans authorized at the rate that I had 
previously been told we would complete those plans, and that I 
had hoped--and I am now talking 2011--that we would be in a 
position to move forward on that. That was, unfortunately, not 
an accurate statement at that time either.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Latta. My time has expired, and I yield back.
    Mr. Shimkus. I would encourage my colleagues who want to go 
to the memorial service to head on down to the rotunda. We are 
going to finish with Butch Cassidy for 5 minutes, and then we 
will tell how we are going to operate after that.
    So the gentleman from Louisiana is recognized for 5 
minutes.
    Mr. Cassidy. Hello, gentlemen.
    I have a lot of petrochemical plants in my State, and my 
workers and my communities are at risk. And I have to say that 
when I speak of dysfunction in Washington, you all are case 
number one. I say that not to be mean but just to kind of 
observe.
    In the report that was the internal report that kind of 
broke this open, there are statements such as, ``Legacy 
employees are doing a tremendous amount of work, while I see 
others sitting at their desk not contributing.''
    Those folks who are not contributing, are they still with 
the agency or have they been released?
    Mr. Beers. David, would you answer that?
    Mr. Wulf. Yes, we have made a concerted effort to ensure 
that all members of our team are contributing to the program. 
And part of what we have done, as we have moved forward, kind 
of, toward a realignment of the organization, is to ensure that 
we can achieve a greater fit between the individual employees 
and the position in which----
    Mr. Cassidy. Has anybody been released? Because the 
document suggested that some that were hired were totally 
inappropriately--had skill sets and attitudes that were totally 
inappropriate to their job description, making it sound more as 
not something that required some adjustment, but required, 
frankly, rehiring.
    Has anybody been released?
    Mr. Wulf. No one has been released, but, you know----
    Mr. Cassidy. Can I just keep on going then?
    They also, in that same report, said that not only had you 
not done any inspections, you had not developed a process to 
inspect. An incredible indictment.
    Are we to believe that you now have a process to inspect?
    Mr. Beers. Yes, sir. We have retrained all of the 
inspectors that are currently on board. We completed that 
process in July----
    Mr. Cassidy. Now--I am sorry, just because we have limited 
time. I apologize to interrupt.
    It also said that because of your union contracts and your 
necessity to bargain even on minutia, even on things to bring 
into compliance with government policy, that it was anticipated 
that this could take weeks, months, it implied years, in order 
to actually implement the policy changes necessary to do an 
effective inspection.
    What has happened with that?
    Mr. Beers. Sir, we have worked with the union, and I think 
we have a productive and expedited process to have those items 
that are required to be reviewed by the union so that they move 
swiftly.
    But I want to turn to David, who has been managing this on 
a day-to-day.
    Mr. Wulf. And if I can just add, sir, that the point that 
we are trying to make in the ``challenges'' memo was that, at 
the early stage in which this program found itself, the 
presence of a union added an additional layer of complexity. 
But, you know, I am glad to report that we have developed a 
very strong relationship with our bargaining unit and that----
    Mr. Cassidy. But no one has been released, and it is so 
clear throughout here that there was a problem with--it was a 
problem not just of form but also of who was hired. That tells 
me, you guys, your credibility, frankly, is a little weak. I 
apologize.
    But here, for example--again, I am reading from your 
internal document--a large number of inspectors, quote, ``were 
hired who have unrealistic expectations and the wrong skill set 
or mindset to do the work of a regulatory inspector; who are 
located in geographic areas that do not make sense or aligned 
to the mission; who, for example, seek law enforcement 
authority as opposed to work, using the uniform as a symbol of 
identity and authority rather than a tool to be used.''
    I mean, that suggests to me that it wasn't just a tweaking, 
a little improvement of the bonding with the union, but there 
were people hired who were inappropriate to the position to 
which they were hired. I can give further examples of that. The 
fact that you tell me that, no, we haven't really released 
anybody, we have just reassigned them, tells me you haven't 
been serious about what you are doing.
    Mr. Wulf. I think we have come a long way in building the 
culture of the organization and building the regulatory 
compliance organization. And we have, you know, some very 
professional, extraordinarily talented folks throughout our 
team. They come from a variety of backgrounds----
    Mr. Cassidy. OK. So, ``some''--this is plural--``some are 
simply unsuited for supervision, treating employees in an 
unfair, unprofessional, or disrespectful manner. Others are 
uninformed about their responsibilities as a supervisor to 
manage employee issues.''
    This is your internal document. And yet what I am hearing 
from you is, no, we haven't really released anybody, but we are 
working on it. Frankly, that doesn't help your credibility.
    Mr. Beers. Sir, some of the thoughts behind that statement 
were that individuals were hired into positions that they 
weren't adequately trained and, from a baseline resume review, 
didn't have the background for.
    Mr. Cassidy. I am out of time----
    Mr. Beers. What we have done is go through the process of 
training, go through the process of moving those individuals to 
more appropriate positions that are cast against their 
qualifications.
    Mr. Cassidy. Has anybody had a reduction in pay? Because 
another thing was, ``An excess number of highly graded 
personnel are serving in positions that do not contribute to 
the mission at a level commensurate with their pay grades.'' 
Has anybody taken a decrease in pay?
    Mr. Beers. That is where I say we are moving people to more 
appropriate positions.
    But let me ask David to clarify.
    Mr. Wulf. And we have made a lot of process over the past 
year. I mean, that report was put together about a year ago, 
and we have put into place a variety of things, including 
training for supervisors. We have----
    Mr. Cassidy. If I am a taxpayer and if I see something that 
smacks of cronyism, per your report, the obvious question is, 
am I getting more bang for my taxpayer buck?
    Has anybody taken a cut in pay?
    Mr. Wulf. We have people in positions for which they are 
more suited. And we have put into place, you know, an open and 
transparent process.
    Mr. Cassidy. I will take that as a ``no.'' We are out of 
time. I apologize.
    Mr. Shimkus. The gentleman is yielding back his time.
    I guess the big point is, if you can't do the small things, 
how can the country, the localities, the taxpayers, the public 
interest groups, expect us to do the big things? And that line 
of questioning, I think, just highlights that.
    The chair wants to announce that he wishes to recess this 
hearing so Members and interested persons can go to the 9/11 
service at the Capitol.
    With no objection, Mr. Beers is excused from the first 
panel.
    Mr. Beers, will you commit to provide full and accurate 
responses to written questions within 10 days of their 
submission?
    Mr. Beers. Yes, sir.
    Mr. Shimkus. And that is a request from both sides.
    When we return, we will have Mr. Wulf and Ms. Berrick 
continue answering some questions, if that is OK with you all.
    The committee stands in recess until 11:45.
    [Recess.]
    Mr. Shimkus. I would like to call the hearing back to 
order.
    Again, we want to thank you for your patience and for 
giving us an opportunity to join our colleagues out on the east 
steps of the Capitol. It is always a memorable time and usually 
very short because on September 11th, that it was a short event 
in which we gathered. So I think those of us who were here 
remember that with a lot of emotions, as Americans do. And that 
is why I think what we are doing here today is still important 
and relevant.
    So, with that, I would like to recognize myself, which 
would be a second round of questions, for 5 minutes.
    Ms. Berrick, CBS originally reported on problems with the 
CFATS program. The report showed a video clip of the Under 
Secretary of the National Protection and Programs Directorate, 
during which he called the CFATS program a ``tremendous success 
to date.''
    Would GAO characterize the program the same way?
    Ms. Berrick. No, Mr. Chairman, not based on the work we 
have done to date.
    And I think what is going to dictate whether or not it is 
successful is whether it is able to execute its mission. And I 
think they are still in the early phases of positioning 
themselves to be able to do that.
    Mr. Shimkus. And, following up on your response, should 
they still be in the early stages?
    Ms. Berrick. You know, comparing them to other regulatory 
programs across DHS, I think it is certainly taking them longer 
to get CFATS up and running. For example, comparing them to the 
Coast Guard, who also had to set up a regulatory regime at the 
ports when the Maritime and Transportation Security Act was 
passed, the Coast Guard got it up and running probably in a 
year and a half, although the Coast Guard did have personnel in 
place and an infrastructure, so they were better equipped to 
get up to speed earlier.
    TSA may be a better comparison since that was a new 
organization and they were setting up a new regulatory regime. 
It took TSA, I think, several years, looking across both their 
regulatory and voluntary programs, and they also had some 
challenges but not to the degree that CFATS has had.
    I think part of this could also be contributed to the 
standards that inspectors are assessing against. And CFATS is 
performance-based, which are broader, whereas at TSA the 
standards tended to be more specific, and that could be, in 
some respects, easier to establish a framework to assess 
against those specific standards.
    So some differences, but looking across the Department, it 
has taken CFATS longer to get up and running.
    Mr. Shimkus. Well, I think it was last year when I had an 
inspector just come visit and kind of do an open-office-hour 
type of thing. And he was well-intentioned, wanted to do the 
right thing, but really was really lacking any guidance. So I 
think they were going around visiting facilities but really 
having no idea what they were checking for and why they were 
checking for it. And it kind of saddened me just because he 
really wanted to do the right thing but there was really a lack 
of guidance. And this was last year, last August, so not this 
past August.
    I understand that GAO has placed DHS on its high-risk list 
due to management challenges facing the Department. And we are 
talking about the whole Department of Homeland Security. To 
what extent have these management challenges had an impact on 
the NPPD's ability to manage the CFATS program?
    Ms. Berrick. You know, I think CFATS is an example of those 
management challenges that we talk about in the high-risk area.
    We placed DHS on the high-risk list in 2003 after it was 
created because we found that they didn't have the rigor and 
procedures and oversight over their core management functions, 
and this is acquisition management, financial management, 
information technology, and human capital management.
    And what we were finding is, because of not having the 
discipline in these management areas, it was having a negative 
effect on DHS's ability to implement its mission. So there were 
a number of programs that weren't meeting performance 
expectations, cost more than what they were supposed to cost, 
were taking longer to field, because of these management 
challenges.
    I think CFATS is an example of this. For example, in the 
human capital area, we have talked throughout the Department 
about DHS's challenges and bringing people with the needed 
skills and abilities on board to fill critical positions. They 
have had challenges in doing that.
    In the information technology area, you know, CFATS has an 
information technology tool to solicit input from the 
facilities to look at their site security plans and 
vulnerability assessments. The tool has some challenges, which 
were identified in the internal memo, mainly that it provides a 
lot of data but not in a real user-friendly format to read. So 
that is an example of an IT challenge.
    I think the Department as a whole has recognized these 
management problems. They have some good strategies in place to 
address them, but they are in the relatively early stages of 
doing that.
    Mr. Shimkus. So DHS is in the high-risk; CFATS is probably 
their number-one problem of concern. I think it goes back to 
the issue of, if you can't get the small things right, how do 
people trust you to do the big things in this issue? So we 
appreciate your analysis.
    And my final question: Given the seriousness and multitude 
of problems CFATS is facing, particularly with respect to 
conducting its mission, would it be viable to consider, quote/
unquote, ``standing down'' the program for some period of time 
so that these issues can be addressed before attempting to move 
forward with this regulatory mission?
    And to put it in another way, it is like trying to build a 
car while you are racing the car.
    Ms. Berrick. Right.
    Mr. Shimkus. Could we get a better return on investment and 
a more timely process getting it right before it deployed? Do 
you understand the question?
    Ms. Berrick. Yes, I do. Thank you Mr. Chairman.
    You know, I think that is something DHS would have to 
consider, weighing that against the need to field a program to 
address existing security vulnerabilities.
    You know, there is an example in DHS's history where they 
did just that. They were working to field a program called 
Secure Flight, which was a high-priority program within the 
Department that compared the matching of passenger information 
against terrorist watch lists for airline passengers. Air 
carriers used to have that function. The 9/11 Commission 
recommended that DHS take over that function from carriers.
    Well, DHS tried to field this program for several years. 
Five years into it, they weren't able to field a successful 
program, and so they did just what you mentioned. They actually 
stood down the program. They went back and instilled some rigor 
in the acquisition that wasn't there before. They were making 
sure that they were preparing appropriate documentation. And 
they did that for a year. And then when they turned the switch 
on and moved forward, they ended up fielding a successful 
program.
    So even though there was a delay when they did stand down 
the program, ultimately they probably saved time, in that they 
were able to address those problems they had, finish that, and 
then focus on implementing the program. So I think it is 
something worth thinking about.
    Mr. Shimkus. Time, effort, energy, frustration, all of the 
above. And I would agree, I think I am going through the secure 
TSA thing now. It just popped up; I wasn't given much warning. 
And all of a sudden, I can go in a different lane. So it is 
pretty nice.
    The chair now recognizes the ranking member, Mr. Green, for 
5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    In June of this year, the House passed an appropriations 
bill for the Department of Homeland Security that cut funding 
for CFATS in half.
    Mr. Wulf, what impact would cutting your budget in half, on 
the CFATS program, what impact would it have?
    Mr. Wulf. That proposed cut would have a pretty major 
impact on our ability to move the program forward at, you know, 
what is really a critical time for the program.
    You know, we have made a great deal of progress in our 
action plan. You know, we have, in essence, taken a bit of an 
operational pause over the past several months. We are now at 
the point where we have conducted the training. We have 
developed a streamlined site security plan review process. We 
have our inspectors out, having recommenced authorization 
inspections. We have turned an important corner in the program. 
And a cut, as the House Appropriations Committee has proposed, 
would force some very, very difficult choices.
    We would have a limited ability to pursue needed 
improvements to the site security plan tool and the Top-Screen 
and SVA tool, something we are moving forward with in 
partnership with our industry stakeholders. We would have 
limited ability to continue implementing the action plan. We 
have made a considerable amount of progress in that 
implementation process, having completed 67 of the 95 action 
items.
    It would essentially cut the legs out from under us when we 
have turned an important corner, when we do expect and 
anticipate and have already begun to see a heightened pace of 
site security plan authorizations, approvals, and facility 
inspections.
    Mr. Green. Well, and I am sure you understand the 
frustration after 6 years and funding and funding and that 
frustration. But we are seeing some improvement now, and to cut 
the funding and still expect results is just not going to 
happen. And so I don't know what the continuing resolution we 
will vote on this week has for the 6 months, but I would hope 
it would be something that would give you the resources to do 
your job.
    Mr. Wulf, the site security plan process is a key link to 
your ability to effectively review and approve plans. Have you 
made progress with improving this vital tool so that the 
covered facilities have clear instruction on information DHS 
needs?
    Mr. Wulf. Yes, we have, in fact. We, over the past several 
months, having learned many lessons ourselves as we went 
through the site security plan reviews at our headquarters, 
have been out kind of piggybacking on events that industry 
associations have been holding across the country, to get the 
word out to facilities about how they can provide the detail 
that will enable us to get more efficiently and effectively 
through the review of the site security plans and get to 
authorization and approval in a more streamlined fashion.
    You know, at the same time, we are kicking off the SSP tool 
focus groups, working groups, with industry to continue to try 
to improve that tool to make it more user-friendly, both to the 
facilities and to our reviewers, and also continuing to work 
with industry on the alternative security program templates.
    Mr. Green. Well, I am glad you are bringing in the 
regulated community because, again, I have huge numbers of 
those in our district. And we have a particular group that I 
work with a lot, the East Harris County Manufacturers, made up 
of oil refiners, chemical plants, service companies. And that 
is one of the issues, when I talk to them, that they want to be 
part of the solution instead of just being told what to do. And 
sometimes the Federal Government is known for giving 
instructions that don't work on the ground.
    Mr. Wulf. Yes.
    Mr. Green. And so I am glad you are bringing them in.
    Ms. Berrick, the GAO has done extensive work on the need 
for strong security at chemical facilities going back as far as 
2003. Can you describe the risk posed by these facilities?
    Ms. Berrick. There is a risk posed by these facilities, the 
details of which are classified. We will be happy to come up 
and brief you and your staff separately on that. But there is a 
risk, according to DHS's threat assessment.
    Mr. Green. I have no doubt that there is a risk. In fact, I 
have companies that produce ammonia, that we ship ammonia, all 
sorts of volatile chemicals. That is just the nature of our 
district. It is important to have an effective government 
program, though, that ensures chemical facilities are protected 
from a terrorist attack. Is that correct?
    Ms. Berrick. According to DHS's threat assessments, they 
have identified a need for such a program.
    Mr. Green. And, you know, there are things that are 
happening in the last 6 years, even though the oversight may 
not be there, or what we need. Because I know, both through the 
FBI working with local law enforcement and our plant security, 
I have seen them there, our local special agent in charge has 
told me they have been on every plant site, in fact, probably, 
by now, a number of times, to be able to work with the folks 
who actually work there and produce these products that our 
country needs.
    Mr. Chairman, I know I am over time, so thank you.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the gentleman from Louisiana, Mr. 
Cassidy, 5 minutes.
    Mr. Cassidy. Mr. Wulf, again, I am a physician. I know if 
you continue to have the same inputs, you should expect the 
same output. So all my questions go back to that initial report 
as to the inputs of your process, which obviously have been 
lacking.
    And, by the way, when you haven't laid off anybody and yet 
we have an internal report showing that some of the people are 
sitting at their desk are doing nothing, but you continue to 
maintain you need the same amount of money, I am wondering why 
we are giving you any because, frankly, the public trust is not 
being met by your actions. That is just my perspective and as a 
counterpoint to what Mr. Green said.
    Ms. Berrick, in the internal report, it said that the 
database CHEMS was the wrong database. ``It does appear the 
database can be modified to meet needs but requires a 
substantial amount of redefining requirements, reworking 
protocols, codes, et cetera, calling into question the funding 
spent to date,'' going back to funding.
    Is the database now adequate?
    Ms. Berrick. It is not, according to the office and based 
on the work we have done to date.
    It does provide some value because it is a tool to collect 
the needed information for CFATS to assess. However, it is not 
very user-friendly. Outputs are oftentimes data dumps that are 
difficult to sift through, especially when you are looking at 
something as complex as what CFATS is looking at.
    So there are identified challenges that CFATS has 
identified themselves and are working to try to address, but it 
is going to take time and money to, I think, make those 
revisions to the system.
    Mr. Cassidy. OK. Time and money to make that revision, and 
yet somehow we are going to be back on track certifying plants. 
And I don't want this to be mean, but I am supposed to be 
providing oversight for the American taxpayer, who, if she knew 
what was going on, would just be furious.
    Ms. Berrick, it said in the internal report that ISCD does 
not have an established records management system to document, 
development, and maintenance of necessary historical 
documentation related to programs owned by the division. Has 
that now been corrected?
    Ms. Berrick. I don't know if that has been a closed action 
item or not. I believe it is in progress. Maybe Mr. Wulf has 
the current status.
    Mr. Wulf. Yes, it is in progress. And we are keeping 
records very, very extensively and thoroughly. It is a high 
priority and something we take very seriously, as the remainder 
of the action items, as well, on which we have made a 
significant amount of progress on.
    Mr. Cassidy. So, yes or no, do you have an established 
records management system now?
    Mr. Wulf. We do.
    Ms. Berrick. If I could mention, Mr. Cassidy, GAO has 
ongoing work looking in more detail at CFATS' ability to meet 
its mission. We will be reporting on those results early next 
year, including looking at the records retention issue.
    Mr. Cassidy. OK. That would be great.
    Budget: Our lack of focus and vision has resulted in 
problems, how we spend our money, how we are managing these 
funds--for example, buying first responder equipment such as 
hazmat suits when, as a regulatory entity, we do not have a 
first-responder role.
    Ms. Berrick, has that been corrected?
    Ms. Berrick. I do not know, Mr. Cassidy.
    Mr. Cassidy. Mr. Wulf?
    Mr. Wulf. Yes, it absolutely has. In the early days of the 
program, there were course corrections. There was some 
thought--and this was before my time--that the chemical 
security inspectors would have a response role. As the program 
evolved and as it became clear that they would not, that 
equipment was repurposed within the Department.
    Mr. Cassidy. Are we still paying more than $20,000 per year 
for professional memberships in ASIS that are unnecessary, et 
cetera?
    Mr. Wulf. We are not paying for those memberships anymore.
    Mr. Cassidy. And now, it says, ISCD lacks--again, internal 
document--lacks a system for tracking the usage of consumable 
supplies, which creates an environment for fraud, waste, and 
abuse to exist.
    Has that, Ms. Berrick, now been established?
    Ms. Berrick. I am sorry, I don't know the current status of 
that item.
    Mr. Cassidy. Mr. Wulf?
    Mr. Wulf. Yes, we are track tracking those supplies.
    Mr. Cassidy. OK.
    Now, I could go on, but I think we are making the point. 
There seems to be substantial amounts of really critical things 
which have to be addressed. And in an ongoing basis, we are 
keeping people employed who, again, your internal documentation 
suggests are the inappropriate person for their roles.
    Build a case why we should give you more money.
    Mr. Wulf. Well, as I have said, we have made a significance 
amount of progress. I think with regard to----
    Mr. Cassidy. Now, I am a physician, and I teach. So when a 
medical student--and I say this not to be abusive, and I 
apologize if I come across this way. But if somebody tells me 
``significant''--``significant'' is one of those loosey-goosey 
words that may or may not have significance.
    It certainly would move the ball from here to there, but if 
this is threshold at which you can actually accomplish a 
mission--where are you relative to getting to the threshold 
where you can actually accomplish your mission? Sure, you may 
have made significant progress, but you may have this 
incredible gap between where you are now and the threshold at 
which you can actually accomplish your mission.
    Actually, Ms. Berrick, where would you guess they are?
    Ms. Berrick. I think they are in their early stages. They 
are still setting up a framework to position themselves----
    Mr. Cassidy. Are we 10 percent of the way there? A hundred 
percent? Fifty percent? Sixty percent?
    Ms. Berrick. If I had to put a guess, an educated guess 
percentage, you know, maybe 25 percent.
    Mr. Cassidy. Can you give us a timeframe in terms of years 
at which they will reach the threshold of being able to 
accomplish their mission?
    Ms. Berrick. You know, all the actions under way have 
different timelines. We have been told that it--CFATS is 
estimating it could up take up to 3 years to complete 
compliance inspections once they review the site security 
plans.
    Mr. Cassidy. But we don't even have a database yet which 
can be easily used in order to support that initial site--so 
the 3 years was after the threshold is met?
    Ms. Berrick. Three years from today is the estimate that 
they provided us. And, again, we are going to continue to 
review this as a part of our ongoing work. And I think early 
next year we will be positioned to provide you details on where 
we think they are in terms of this continuum of progress.
    Mr. Cassidy. OK. Thank you.
    I yield back.
    Mr. Shimkus. Mr. Wulf, do you want to respond?
    Mr. Wulf. Yes, I mean, I would love to.
    We are, I believe, accomplishing our mission. The CFATS 
program has accomplished a great deal over the course of its 
existence. You know, the 2,700 facilities that have removed or 
reduced their chemicals of interest; you know, the 7,800 
security vulnerability assessments that have been completed and 
reviewed by our staff; the more than 3,000 compliance 
assistance visits and other outreach visits that our inspectors 
have conducted have laid important groundwork.
    We are at the point where we are seeing a heightened pace 
of reviews of site security plans. Within the last week, we 
have authorized, myself along with Assistant Secretary 
Durkovich, have authorized 10 additional plans and approved our 
first 2 site security plans.
    We are going to be moving this program forward. And, you 
know, I am very pleased to say that, you know, I have had, as 
have the rest of our team in ISCD, a tremendous amount of 
support within the organization. There is a tremendous amount 
of commitment for getting this job done.
    We are accomplishing the mission. In terms of percentages, 
we put into place that corrective action plan last fall; we are 
70 percent done with that. You know, not that we are ever going 
to be completely done. We are going to continue forward--I am 
sorry, sir.
    Mr. Shimkus. I appreciate your passion in defending the 
program. You can understand why my colleague, his frustration.
    Mr. Wulf. Sure.
    Mr. Shimkus. And we all want to move this together.
    In talking with my ranking member, two things: He wants to 
make sure we put on record that, obviously, our oversight is 
not going to end, so we will just keep monitoring this. And I 
think for both of us, for the defense of the program, and for 
the giving due preference and diligence to our taxpayers, I 
think it is the right course of action, to make sure that we 
finish this and we have a program that we can defend publicly.
    Also, without objection, I would like to pose one other 
question, just because we were talking about budgets. The 
President is supposed to lay out, hopefully, sequestration 
issues Friday. Sequestration, 50 percent of that comes out of 
defense and homeland security, national defense issues.
    Have you all heard--and I know that you have a small 
program within Homeland Security. But I would venture to say 
that whatever budget that the House has proposed that might 
address funding, sequestration might do even more.
    Have you guys even talked about what effect sequestration 
might have to the CFATS program?
    Mr. Wulf. I have not been part of those discussions.
    Mr. Shimkus. And we await the President's disclosing what 
he may or may not do.
    Seeing no other Members asking for time, we would like to 
thank you for coming back, making sure that we could get the 
second round. It was very important for all of us. And we would 
like to dismiss you and empanel the second panel. So, with 
that, thank you very much.
    Mr. Wulf. Thank you.
    Mr. Shimkus. We also want to thank you all for coming.
    The way I operate is I am going to introduce you all, like, 
right off the bat, and then we will go for 5-minute opening 
statements.
    We also ask unanimous consent that all members of the 
subcommittee have 5 days to forward questions to you all, too. 
And, without objection, so ordered.
    On the second panel, we have Mr. Timothy Scott, chief 
security officer of Dow Chemical Company. We also have Mr. 
Matthew Leary, corporate EHS&S manager, Pilot Chemical Company. 
We have Ms. Anna Fendley, United Steelworkers, Health, Safety, 
and Environment Department; and Mr. Paul Orum on his own 
behalf.
    So, with that, we appreciate you attending. You all have 5 
minutes for an opening statement. Your full statement will be 
submitted for the record. I did review them, scanned them, all 
last night. And so I appreciate the efforts you made on that 
behalf.
    And, with that, we will begin with Mr. Scott for 5 minutes.

  STATEMENTS OF TIMOTHY J. SCOTT, CHIEF SECURITY OFFICER AND 
 CORPORATE DIRECTOR, EMERGENCY SERVICES AND SECURITY, THE DOW 
 CHEMICAL COMPANY; MATTHEW J. LEARY, CORPORATE EHS&S MANAGER, 
   PILOT CHEMICAL COMPANY; ANNA FENDLEY, HEALTH, SAFETY, AND 
  ENVIRONMENT DEPARTMENT, UNITED STEELWORKERS; AND PAUL ORUM, 
BLUE GREEN CHEMICAL SECURITY COALITION, INDEPENDENT CONSULTANT 
              TO THE CENTER FOR AMERICAN PROGRESS

                 STATEMENT OF TIMOTHY J. SCOTT

    Mr. Scott. Chairman Shimkus, Ranking Member Green, and 
members of the subcommittee, my name is Tim Scott, and I am the 
chief security officer for The Dow Chemical Company. I am 
speaking today on behalf of Dow and the American Chemical 
Council, and I will focus on four points.
    First, the chemical industry and DHS have a common goal of 
improving the security profile of the chemical sector, reducing 
the risk of attack or the use of chemicals as a weapon, and 
minimizing the impact of the potential threats on our country.
    Second, the chemical industry and DHS have made some 
progress using both voluntary industry initiatives and 
collaborative efforts to clarify and meet performance 
standards.
    Third, the concerns associated with the implementation of 
the Chemical Facilities Anti-Terrorism Standards and internal 
DHS management issues are real. It is promising to hear that 
improvements are being made in both areas. In spite of these 
distractions, industry has made progress.
    And, lastly, we need to build on this progress to achieve 
an efficient, integrated, and sustainable security plan for the 
chemical industry and our country. It is time to move on and, 
in fact, accelerate our efforts.
    The CFATS concept is fundamentally sound. DHS established 
Risk-Based Performance Standards, flexibility for the regulated 
companies to apply customized security solutions for each 
unique site and situation, and DHS final approval and review 
for compliance. That is the goal: to set expectations, meet 
those standards, and, by doing so, reduce the vulnerability and 
risk of our chemical sector.
    Too often, we fixate on the methods used to achieve the 
goal instead of the goal itself. No one method addresses every 
site or every situation, but we are making progress.
    The concept of alternative security plans offer an 
excellent opportunity for a thorough but expeditious review and 
approval process of the site security plans at many CFATS-
regulated facilities, especially those in the lower-tiered 
sites and companies that have multiple regulated sites.
    DHS recently completed a pilot test of an ACC-developed 
alternative security plan, and it proved to be a worthwhile 
exercise for both industry and DHS--an excellent example of an 
open and collaborative effort to improve and expedite the 
process. Members of the ACC implemented the Responsible Care 
Security Code in 2002. And over the past decade, ACC members 
have spent nearly $10 billion on security enhancements.
    The code is a requirement for membership and is included in 
independent, third-party audits of the Responsible Care 
Management System. Recognition of the value of such voluntary 
industry initiatives is being considered as another possible 
means of fast-tracking reviews of site security plans.
    The next generation of the DHS site security plan tool is 
being developed and will be both easier and more efficient for 
industry and a more valuable and usable source of information 
for DHS. Progress has been made, but there are still some 
hurdles to overcome.
    Personnel surety is critical to any security program, and 
most companies had background checks and programs in place well 
before the creation of DHS. Screening against the terrorist 
database is a welcome addition to the performance standards and 
is, as it should be, a government responsibility.
    CFATS is closing this gap, but this is an area where we can 
use your help. By design, CFATS allows the flexibility to 
address each performance standard using the method best suited 
to each particular site and situation. The personnel surety 
program and performance standards should be no exception.
    There are many readily available government-approved 
options that would fully comply with this standard, and there 
is no valid reason to limit the options. In the case of the 
personnel surety standard, however, DHS management has not 
demonstrated the flexibility that is integral to and authorized 
by CFATS.
    Also in the area of the terrorist database screening, there 
is one concept in which all security managers agree: We should 
know that a person can pass this screening before we issue an 
entry card and let a potential threat in the gate. And we 
should keep any potential threat out of the site. That is a 
pretty basic security concept, but it is not clear that DHS 
management is in agreement with this important point, and that 
is a cause for significant concern.
    There is definitely room for improvement in the 
implementation of the Chemical Facilities Anti-Terrorism 
Standards, but the necessary corrections can be made and 
success can be achieved. Success demands constancy of purpose, 
commitment, and collaboration. ACC member companies are 
committed. We should not return to square one with DHS or 
change course in midstream. We should strengthen collaboration 
and increase the pace to build an efficient, integrated, and 
sustainable chemical security process for our country.
    Thank you.
    Mr. Shimkus. Thank you, sir.
    [The prepared statement of Mr. Scott follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. I would now like to recognize Mr. Leary for 5 
minutes.

                 STATEMENT OF MATTHEW J. LEARY

    Mr. Leary. Good afternoon, Chairman Shimkus, Ranking Member 
Green, and members of the subcommittee. My name is Matt Leary, 
and I am both corporate security officer as well as the 
environment, health, and safety manager for Pilot Chemical 
Company in Cincinnati, Ohio.
    I am pleased to provide this testimony on behalf of the 
Society of Chemical Manufacturers and Affiliates regarding how 
the Department of Homeland Security has been implementing the 
Chemical Facility Anti-Terrorism Standards and what that has 
meant for Pilot's two covered facilities.
    Pilot Chemical is a small, privately held company 
celebrating its 60th anniversary on the 19th of this month. We 
specialize in alkylation, sulfonation, and sulfation, which are 
used to manufacture detergents. We have only 200 employees. We 
have four facilities, two of which are subject to CFATS.
    Maintaining the security of our facilities has always been 
a priority for SOCMA members like Pilot. After the tragic 
events of 9/11, which occurred 11 years ago today, SOCMA 
members did not wait for new government regulations before 
researching, investing in, and implementing additional and far-
reaching facilities security measures to address these new 
threats. However, there were no uniform Federal standards for 
measuring and implementing these security improvements across 
industry. CFATS standardized that process.
    Definitively, DHS's Chemical Facility Anti-Terrorism 
Standards work. DHS listened to the private sector in 
developing a regulatory framework that is risk-based and 
preserves the ability for security professionals to make 
investments in measures that suit their specific facilities but 
that also provides robust performance standards and imposes 
strict penalties for noncompliance.
    But that does not mean that the CFATS experience has been 
easy for regulated companies, especially small ones like Pilot.
    In several respects, the manner in which DHS has 
implemented the regulations has imposed substantial 
uncertainties and costs on companies. I recognize that DHS has 
been building out the program at the very same time it has been 
implementing it. Nonetheless, I am confident that DHS could 
have substantially reduced these uncertainties and costs if 
they had implemented the program more quickly and confidently. 
They still could.
    An ongoing challenge for Pilot has been the unwillingness 
of DHS to give us useful guidance on how to comply with the 
risk-based performance standards that are at the heart of 
CFATS. DHS staff said they cannot give us clear guidance 
because the CFATS statute prohibits DHS from requiring 
facilities to implement specific security measures.
    That is ridiculous, however. The statute's prohibition on 
requiring particular security measures doesn't prevent DHS 
staff from saying security measure X is one way to meet RBPS Y 
at tier level Z. It is not the only way, and we are certainly 
open to discussing other ways.
    If DHS staff were willing to offer nonexclusive safe 
harbors to those seeking feedback, companies like Pilot that 
are looking for clear compliance guidelines would be able to 
obtain it.
    The other reason we believe DHS has been unwilling to give 
clear guidance is described on page 10 of the Anderson-Wulf 
memo, which says, ``There exists within the cadre of SSP 
reviewers a reluctance to recommend good enough SSPs for 
authorization or conditional authorization out of fear that the 
leadership has a zero-tolerance philosophy toward mistakes and 
out of a lack of clarity regarding expectations.''
    DHS needs to make clear to staff that they are expected to 
use their judgment to make decisions and that management will 
not punish them for doing so.
    Another issue of concern to Pilot has been DHS's misguided 
personnel surety proposal. Last year, DHS announced its intent 
to establish a Web-based application that would require 
facility owners and operators to submit personally identifying 
information about current and prospective employees, as well as 
contractor and visitor personnel seeking access to a plant.
    Our industry has expressed serious reservations about the 
logistical nightmares that this proposal could lead to, given 
the heavy presence of contractors at chemical sites, especially 
during plant-wide maintenance turnarounds. DHS has been open to 
discussing alternative approaches, and the industry has 
proposed both interim and long-term alternatives that could 
involve reliance on existing Federal vetting programs, 
mechanisms by which contractor and visitor employees could 
submit information regarding their own employees, and 
ultimately a universal Federal security credential that would 
supersede all others.
    Many smaller companies like Pilot would benefit from 
leveraging existing processes for vetting individuals that we 
feel meet the intent of the standards. DHS's prior proposal 
would unnecessarily limit the number of options open to 
regulated facilities for complying with RBPS 12. Resolving this 
challenge expeditiously would free up ISCD resources to focus 
on the more pressing task of approving SSPs and initiating 
compliance inspections.
    As I have testified today, the CFATS framework is sound, 
but DHS's implementation has been flawed. We have seen progress 
made by the Department under the recent management of Deputy 
Under Secretary Suzanne Spaulding and ISCD Director David Wulf. 
To help ensure further progress is made, however, DHS must not 
drift away from the spirit of the public-private partnership on 
chemical security that it has so often hailed as the keystone 
of the CFATS program.
    I appreciate this opportunity to testify before you today 
and look forward to your questions.
    Mr. Shimkus. Thank you, sir.
    [The prepared statement of Mr. Leary follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. The chair now recognizes Ms. Fendley for 5 
minutes.

                   STATEMENT OF ANNA FENDLEY

    Ms. Fendley. Thank you. Chairman Shimkus, Ranking Member 
Green, and members of the committee, thank you for the 
opportunity to be here today.
    I represent the Health, Safety, and Environment Department 
for the United Steel, Paper and Forestry, Rubber, 
Manufacturing, Energy, Allied Industrial, and Service Workers 
International Union--``USW'' for short. We represent 850,000 
workers in the sectors I just mentioned and many others, 
including the majority of unionized workers in the chemical 
industry and hundreds of thousands of men and women whose 
workplaces use and store large quantities of industrial 
chemicals.
    I am here today on the 11th anniversary of the September 
11th attacks to talk about the critical and unfulfilled need 
for comprehensive chemical security protections for workers and 
citizens.
    There were promises and hopes that CFATS would protect 
American citizens when it was enacted as a temporary measure 
before a more comprehensive program could be passed. And some 
security measures have been implemented under CFATS. But CFATS 
is not and never will be the comprehensive program that we need 
to protect against an unforeseen terrorist attack.
    Most notable for our members are several gaps in CFATS 
jurisdiction that leave millions of Americans and American 
infrastructure at risk. CFATS exempts thousands of water-
treatment facilities containing poisonous chlorine gas and 
other chemicals. It also exempts port facilities on navigable 
waters which are covered by the Maritime Transportation 
Security Act.
    Many of those port facilities are oil refineries, where our 
USW members work in the vicinity of small towns and major U.S. 
cities like Houston, Philadelphia, Los Angeles, and San 
Francisco. Other facilities that fall outside of CFATS are 
those under the jurisdiction of the U.S. Coast Guard, the 
Department of Energy, the Department of Defense, and the 
Nuclear Regulatory Commission.
    CFATS also does not cover chemicals shipped or stored 
outside the fence line in nearby rail yards or elsewhere that 
may have little or no security measures. It does not prohibit 
the shifting of these risks from one location to another. I 
have seen pictures and gotten accounts from our members of 
railcars full of hazardous chemicals parked for days outside 
the fence line, within yards of a busy road, near homes and 
other businesses.
    Employers may engage in this form of risk-shifting to be 
taken off the list of high-risk facilities, or risk-shifting 
could be an established practice, occurring for years, because 
workers and management simply do not recognize the hazard and 
the potential for a criminal act. Under CFATS, there is no way 
of knowing if and how these risks are being shifted.
    Additionally, CFATS explicitly prohibits the requirement of 
any particular security measures, such as safer chemical 
processes. My colleagues and I work with employers every day. 
Many take safety measures that go above and beyond, but there 
are always some that will only do the minimum required by law 
and, as we all know, some who won't even do that.
    Some companies have shifted to safer processes or reduced 
their inventory of hazardous chemicals. These facilities 
include where our USW members make paper, aluminum, glass, and 
other products. But many companies will never even look at 
innovating without a legal requirement to do so.
    Another important deficiency of CFATS is the lack of a 
meaningful role for workers in chemical security. Workers who 
operate and maintain facilities know the most about what needs 
to be done to reduce vulnerability and protect against a 
terrorist attack. However, under CFATS, background checks done 
by employers or third parties may be used against workers or be 
full of inaccuracies due to errors in reporting. CFATS also is 
lacking in its provisions for an appropriate appeal process 
when errors made in background checks improperly exclude 
workers.
    Employer background checks allow for a risk of releasing 
personal information and may also result in duplication of 
effort when many workers at high-risk sites already must 
acquire a Transportation Worker Identification Credential, a 
TWIC, issued by the TSA, which is part of DHS but separate from 
the CFATS office. TWIC requires background checks, and TSA 
safeguards personal information.
    Workers across this country, those who would be hurt first 
and worst during an attack, need stronger comprehensive 
chemical security legislation that is effectively implemented. 
Congress can no longer simply oversee implementation of a 
measure that was intended as temporary. Action is needed to 
legislate a comprehensive chemical security program that 
addresses the gaps in CFATS that leave millions of American 
workers and their families at risk. You, Mr. Chairman, and your 
committee could take action to make these improvements.
    Thank you again for the opportunity to testify today.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Ms. Fendley follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. And, Mr. Orum, you are recognized for 5 
minutes. Thanks for joining us.

                     STATEMENT OF PAUL ORUM

    Mr. Orum. Good afternoon. I am Paul Orum. I am pleased to 
represent the views today important to the Blue Green Chemical 
Security Coalition, as well as findings from research conducted 
for the Center for American Progress and others.
    I plan to make three main points: one, the chemical 
security problem is well-known; two, the current program, 
CFATS, won't, in my view, fix the problem; and, three, Congress 
should pass comprehensive chemical security legislation.
    The chemical security problem is well-known. More than two 
dozen government agencies and others have warned that 
industrial chemicals could be intentionally or inadvertently 
released to cause harm. Many of these resources are listed in 
my testimony, and for brevity I won't repeat them.
    Two, the current temporary Chemical Facility Anti-Terrorism 
Standards won't fix the problem. The standards lack basic 
elements of an effective program. CFATS exempts drinking-water 
facilities, exempts wastewater facilities, exempts many major 
refineries and terminals and chemical manufacturers that happen 
to be on navigable waters.
    It excludes knowledgeable employees and their 
representatives from security planning. It doesn't allow DHS to 
require companies to fix specific security problems on the 
ground. It lacks clear deadlines for completion and approval of 
assessments and plans. It lacks basic government accountability 
measures, such as regular progress reports.
    It doesn't secure chemical supply chains. In my view, it 
perpetuates uncertainty. And, very importantly, it neglects 
technological changes that can make chemical facilities less 
attractive targets.
    These flaws are in the law. They are all found in the 
appropriations rider that created CFATS as a temporary program.
    Congress should authorize a comprehensive chemical security 
program. The last Congress, about 3 years ago, did so after--
the House passed after a lengthy consultation with stakeholders 
in four congressional committees. This bill would have closed 
the greatest loopholes while seamlessly incorporating CFATS. It 
is the responsibility of Congress to authorize a comprehensive 
program.
    In addition, Congress should support, not hinder, existing 
authority of the U.S. EPA to promote safer technologies under 
the general duty clause of the Clear Air Act and, likewise, the 
authority of DHS to promote intrinsically more secure 
technologies as a security measure under CFATS.
    While Congress should close all the chemical security 
loopholes, I would like to elaborate on two current 
deficiencies.
    First, government accountability. If we spent $500 million 
on chemical security, it is important for the public to know 
what the effort is producing.
    The comprehensive program passed in 2009 included 
government accountability provisions, namely, regular public 
progress reports to Congress. The reports were to summarize how 
facilities were complying and lay out the basic scope of the 
program--how many facilities, how many plants, how many 
approved, and so forth. Had these provisions been included in 
CFATS, the first report to Congress would have been due some 5 
years ago, and many challenges would have come to light 
systematically rather than as a result of leaked internal 
memoranda.
    In my opinion, the program will inevitably lack public 
credibility if it doesn't require a complete public accounting 
of facilities and scope and progress.
    An effective program should also help companies identify 
and remove avoidable chemical hazards. Under CFATS, DHS has not 
developed the removal of unnecessary chemical targets as a 
security measure.
    We know that some 1,600 or more facilities have reportedly 
removed chemicals of concern and others have dropped below 
reporting thresholds. While we lack basic public information 
about these changes, the numbers do suggest that much more than 
this could be done with a structured program.
    Each facility that tiers out of the program is a facility 
that DHS does not have to oversee. Removing unnecessary targets 
should be one of the tools in the chemical security toolbox.
    Thank you again for the opportunity to testify. Please let 
me know of any questions or ways that I or my colleagues can be 
helpful to the committee.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Orum follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. I am going to ask unanimous consent that Mr. 
Pompeo can sit in. I know there may be another from your side 
joining us. And then, as per tradition, if members of the 
subcommittee are done asking their questions, then we will go 
to other members from the full committee who are joining us.
    So, with that, I recognize myself for 5 minutes, and my 
questions will start with Mr. Scott.
    It is my view that CFATS officials are trying to operate a 
regulatory program like a police program. This brings me to 
concerns with the personnel surety program, which has been 
addressed a couple times today already.
    As I understand it, the terrorist screening database is 
operated by the Federal Bureau of Investigation, not DHS. Under 
another DHS program, the Maritime Transportation Security Act--
we do a lot of acronyms, so I like to read these out--if 
someone with a TWIC card gets a hit on the terrorist screening 
database, the TWIC is automatically deactivated and the 
facility notified. Minimum DHS interference in that process.
    Under CFATS, the program seems to insist that all 
information be passed through them to the FBI but that the 
Infrastructure Security Compliance Division cannot let a 
facility know if a terrorist is working in their plant.
    Do you agree with me that DHS is not trying to operate 
CFATS like it was intended by Congress but more like a policing 
and response program?
    Mr. Scott. Yes, sir. They seem to be gathering information 
and holding information within DHS instead of sharing in a 
partnership, as we started out.
    So the TWIC program and the background check program, 
personnel surety is one example of that, where we would be 
required to submit information to DHS and really never get an 
answer back. Especially concerning is we don't get an answer 
back if they do have somebody that is a hit in the terrorist 
database. We are going to have them--if they don't tell us, we 
still have a potential terrorist working in our plant, and that 
is absolutely crazy.
    Mr. Shimkus. And the first panel, as I was talking to Under 
Secretary Beers and I--how can you give approval or the wink 
and nod that a facility has been approved when they really 
haven't established the personnel surety program in an 
operation? I would think that would be the number-one concern.
    If DHS has no response function, is there a reason why the 
facility cannot communicate directly with the FBI?
    Mr. Scott. No, there is absolutely no reason. In fact, most 
facilities are going to communicate with their local Joint 
Terrorism Task Force and the FBI and the local law enforcement. 
I mean, that is the response agencies for a situation that does 
occur at your site.
    Mr. Shimkus. Has your experience under the MTSA, which is 
the Maritime Transportation Security Act, led you to believe 
that it is doable to prevent known terrorists from wandering 
around a land-based plant?
    Mr. Scott. Several of our larger sites are covered under 
the Maritime Transportation Security Act. And we have a very 
good relationship, and the Coast Guard is a very strong 
organization, both on the response side and the enforcement 
side, and have worked with us very closely because our MTSA 
sites have the same security upgrades and same security 
programs as all of our CFATS-covered sites.
    Mr. Shimkus. Why do you believe strongly, as some of the 
panelists do not, that EPA should not be the chemical security 
agency for the Federal Government?
    Mr. Scott. Well, the general duty clause was--it came to us 
under the Clean Air Act. It is specifically designed for 
environmental protection and does a very good job--EPA does a 
very good job in that respect. They do not have a lot of 
expertise in site-security types of programs, and we don't 
really need to start over with a new agency, to go back to 
square one and try to do this again.
    Mr. Shimkus. Thank you.
    Let me turn to Mr. Leary now, because Dow--monstrous, big; 
Mr. Leary--small, hopefully profitable.
    You testified that you have limited capital to invest in 
needs across your plants, not just CFATS-related ones. So what 
percentage of your capital is being tied up by the poor 
implementation of the CFATS program?
    Mr. Leary. Chairman, I can't really speak to the 
corporation, but I can, as an example, talk to you about my 
department's budgetary concerns. And at least in what I have 
just submitted--our fiscal year runs September--and I think 
security accounted for over 100 percent of the budget, as 
compared to everything else that we are tasked to do.
    Mr. Shimkus. How do we assure that the real financial needs 
of your security professionals are taken seriously within the 
context of CFATS implementation?
    Mr. Leary. Chairman, I can only speak for Pilot in this 
respect. And I am very proud to report to the subcommittee that 
I have been given more than enough support to do so. And at 
least from a Pilot perspective, there have been no issues 
whatsoever in terms of getting support to go ahead and do what 
we have to do under the standard.
    Mr. Shimkus. Thank you.
    I have 13 seconds left. I will yield back my time and turn 
to my ranking member, Mr. Green, for 5 minutes.
    Mr. Green. Again, thank you for being here and patient 
today.
    Were you here during the first panel?
    Mr. Leary. Uh-huh.
    Mr. Green. The question for all of you, including the U.S. 
Steelworkers, is that the CFATS personnel surety program 
proposal was recently rescinded and received much criticism 
from industry and unions. Can you explain what the criticism 
was? And how did DHS respond to your concerns?
    Mr. Scott. I will be glad to address that a little bit.
    The concern is the burden on industry. You have many sites 
that, mentioned earlier, have a contractor base that travels 
along the gulf coast, for example, during all the shutdowns, 
and you may have thousands of new employees coming in on a 
daily basis for a shutdown. And they may show up at The Dow 
Chemical Company today, and we would have to submit a thousand 
names. And they may show up tomorrow at one of our neighboring 
companies, and they will have to submit the same thousand 
names.
    It is a very burdensome process. And they don't recognize 
any easy solutions that are out there, like a TWIC card from 
MTSA.
    Mr. Green. And I have a Dow facility in my district, not 
your largest, obviously, not Freeport, but I assume the 
contractors have their TWIC cards.
    Mr. Scott. Most contractors on the gulf coast have a TWIC 
card and they travel between sites.
    Mr. Green. Yes. OK.
    Any other response to that?
    Were the steelworkers brought in? I am glad, you know, the 
industry--was the small chemical--I have to admit, I don't have 
many small plants in our area; we have big plants. But were the 
small plant owners also brought in, along with steelworkers?
    Mr. Leary. Yes, I will--at the recent security summit, put 
on by SOCMA and I believe cosponsored by DHS, actually Pilot 
had an opportunity to sit in on a roundtable with DHS regarding 
just this topic. And I was surprisingly pleased that we were 
actually asked our opinion. And so I do believe at least they 
are concerned about our opinions.
    Mr. Green. Ms. Fendley?
    Ms. Fendley. To my knowledge, we were not brought in. But 
we are very concerned about the deference to industry, as well, 
and the lack of an appeals process if there is an error.
    Mr. Green. You know, it seems like the testimony from our 
previous panel said that they were working with the employee 
groups. Did I mishear that from the earlier panel? That is what 
I am concerned about. And believe me, we want everybody at the 
table, you know, about whether it be the industry, small or 
large, but also the employees involved there.
    Maybe that opening went because they announced that they 
were going to deal with using the TWIC-type application, which 
I know--I have lots of steelworkers, I have four of my five 
refineries and a number of my chemical plants are organized by 
the steelworkers. And a few years ago, we had problem-solving, 
because some of my constituents were denied their TWIC card, 
but then we would find out it was a mistake, and we would work 
with them on that. And I know, with our renewal coming up now, 
it is going to be a problem.
    But we understand the problem we have. We don't want to 
reinvent it with another type of surety. And that is what 
worries me. They ought to base it on whether you are--and Dow 
has, at least in my area, they are all waterside, both Freeport 
and the one on the Houston Ship Channel. But I know you have 
plants that are not.
    And is Pilot covered by it in Cincinnati----
    Mr. Leary. No, sir.
    Mr. Shimkus [continuing]. The TWIC card?
    Mr. Leary. No, sir. It is not. Actually, our knowledge of 
the TWIC beyond these proceedings and our involvement with 
SOCMA is somewhat minimal.
    Mr. Green. OK. All right. Well, we will continue to 
encourage them to bring everybody at the table.
    And a question for anyone else on the panel: What would you 
like to see DHS do to help achieve a more smooth implementation 
of the CFATS program?
    One of the things we have all recognized, there has to be 
some continuity and real reauthorization. And we haven't seen 
that, and I don't think we will see that this Congress. But the 
year-to-year is an issue.
    But we also need to make sure--because my complaint is that 
the year-to-year, a lot of industries don't want to spend--they 
want to make sure what they are doing is going to be compliant 
with whatever DHS comes out with.
    Is that an issue that you all dealt with within your 
companies?
    Mr. Leary. From a Pilot perspective, that is one of the 
biggest issues, actually. I could easily recount, for much 
longer than allowed, discussions with our finance director 
regarding the difficulties in budgeting for securing our 
facilities. We are very much afraid that we will be looking at 
an SSP approval and immediately have to expend thousands of 
dollars.
    Mr. Green. Mr. Scott, one of the concerns I have, because, 
literally, Dow's facility is back-to-back in my area, along 
with a lot of other ones, in the testimony that I have read 
shows that, is there an issue with industry taking chemicals 
that are produced in our plants and leaving it at unsecured 
facilities off-plant-site?
    You know, that bothers me because, again, I would see, in 
our district--and I haven't had any complaints, but I know that 
is what Ms. Fendley's testimony that is submitted included. And 
that is a security issue, whether it is made at ABC or Dow or 
ExxonMobil or anybody else, that some volatile chemicals are 
not in a secure facility, including a rail yard that has 
protections off-site.
    Mr. Scott. Sir, we have put the same restrictions, the same 
requirements on our shippers and on the people that--and I am 
talking about Dow Chemical now--but, in general, the ACC member 
companies. As part of the Responsible Care Code, security is 
from the production site to the delivery to the customer. So we 
have a strong security program in place.
    And Dow, in particular, we have submitted our site security 
plans to the DHS Safety Act Office and had the site security 
plans approved. And our transportation distribution security 
plans also have certification under the DHS Safety Act Office, 
which is kind of the Good Housekeeping seal of approval.
    So that whole chain of events takes a significant amount of 
security. So I think ACC member companies certainly take that 
into consideration under the Responsible Care Code.
    Mr. Green. OK.
    Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The chair now recognizes the gentleman from the State of 
Kansas, Mr. Pompeo, for 5 minutes. Welcome to the subcommittee.
    Mr. Pompeo. Thank you, Mr. Chairman, thank you, Mr. Green, 
for allowing me to participate today. I appreciate it.
    Look, Mr. Scott, I have two questions for you that I wanted 
to come here today and speak about. The first is, in your 
written testimony, you talked about some of the problems in 
DHS's program, but you were very clear that the program is 
fundamentally sound, it is risk-based, it is focused on the 
right set of priorities, so DHS, in large measure, has it 
right. And there are things that we can improve on and tweak, 
but it has largely got it right.
    There are some folks who disagree with that. Former EPA 
Administrator Christie Whitman said that EPA should be the 
primary agency in charge of chemical security. Greenpeace has 
said that EPA already has the power under the general duty 
clause, in their view. There have been folks at EPA who have 
suggested that, as well.
    As someone who has watched EPA in other places do real harm 
to potentially tens and tens of thousands of jobs across 
America, that causes great concern to me.
    I have introduced legislation that clarifies what I think 
is already pretty clear regarding the general duty clause. It 
would require EPA to complete a rulemaking process before 
finding any facilities in violation of the general duty clause. 
And it would clarify EPA's jurisdiction by prohibiting it from 
regulating chemical security through section 112(r)(1), the 
general duty clause.
    What is your view, Mr. Scott, on the recent calls by the 
environmental community to try and use the Clean Air Act to 
regulate chemical security when we already have this enormous 
apparatus in place?
    Mr. Scott. Well, first, we think your legislation is a step 
in the right direction to clarify roles and responsibilities.
    As I mentioned earlier, EPA and the general duty clause 
came under the Clean Air Act, and EPA is very strong on 
environmental protection and not as strong in site security, 
physical security, transportation security--all the things that 
come into the supply chain around the chemical industry. So 
that is not their area of expertise, and that is exactly the 
reason why chemical security was put under the Department of 
Homeland Security, the focus on security and all things in 
addition to chemical security.
    So the expertise and the foundation for the CFATS program 
lies with DHS, not with EPA. So I don't think we should muddy 
the waters, change in midstream, or even take one step back. We 
need to move forward with DHS.
    Mr. Pompeo. Right. Do you think there is also some risk 
that, when you have two agencies in, it is contradictory, they 
present competing demands on entities, and all of a sudden we 
are in a worse place than we are even today with the challenges 
DHS is facing? Do you think there is some risk of that, as 
well?
    Mr. Scott. I think if we are going to put an effort in to 
combine some things, it certainly shouldn't be with DHS and 
EPA. I would look to continue the harmonization with MTSA and 
CFATS, Coast Guard and DHS. A lot of the facilities are very 
similar. A lot of the facilities are already covered by one or 
the other or sometimes both, and I think they can be harmonized 
extremely well.
    Dow has built our security programs--whether it is a CFATS 
site or an MTSA site, we put security in place at the same 
level. And I think that is the direction we should go if we are 
going to harmonize.
    Mr. Pompeo. Well, thank you. I appreciate that.
    Your testimony also strongly supported the use of 
alternative security programs in CFATS by DHS. How broadly do 
you think the ASBs should be applied under CFATS? Is it by 
facility? Or by sector? Do you have a view, does Dow have a 
view on that?
    Mr. Scott. Well, again, it depends on the site. But you 
could certainly expand an alternative security plan to 
companies that puts similar security programs in place 
throughout all of their regulated sites.
    So the alternative security plan, the only intent is to 
give DHS all the information they need to make a decision, 
improve the security of the site, and make it easier on the 
submission of the information to DHS. That is the goal of an 
alternative security plan.
    Mr. Pompeo. I appreciate that.
    Last question: Do you think that the ASP provides any less 
protection for a facility than if the facility were to go 
through the entire CFATS compliance regime? Or do you think it 
achieves the same objective?
    Mr. Scott. It is the same objective. It is just a different 
way to submit the site's plan, and it is a more expeditious way 
to submit the site's plan. So there is no difference in the end 
result. It is either approved or it is not approved, and the 
security upgrades are the same.
    Mr. Pompeo. Great. Thank you.
    Thank you, gentlemen.
    I yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time.
    The ranking member has asked unanimous consent to ask one 
additional question. Mr. Pompeo, you may want to stay around 
and listen to the answer.
    And, without objection, the gentleman is recognized.
    Mr. Green. I would just like the panel, if you would give 
us an opinion. We are having a hearing on Mr. Pompeo's bill. I 
have some concern, but would you all have any opinion on it? I 
know it is not on the list.
    Mr. Orum. Yes, I do.
    Mr. Green. We will go right to left this time.
    Mr. Orum. Recall that EPA is the lead agency for security 
at water and wastewater facilities, which are CFATS-exempt. But 
also, more generally, for chemical facilities, people in 
communities don't necessarily make much of a distinction 
whether it was inadvertent or deliberate if a gas cloud comes 
to where they are.
    When EPA acts to reduce catastrophic hazard potentials 
under its authorities, it has the secondary benefit of removing 
terrorist targets. So it is not necessarily so that EPA is 
acting as a security agency, but it may yet have security 
benefits.
    Mr. Green. Ms. Fendley?
    Ms. Fendley. I would agree with Mr. Orum. For workers at 
these sites, the potential for a terrorist attack and the 
potential for an accidental release, you know, they would have 
the same effect. And if EPA can also work to reduce the 
presence and the quantities of hazardous chemicals on these 
sites, we are incredibly supportive of that.
    Mr. Leary. SOCMA most certainly supports the bill as 
intended. And I really can't--I think Mr. Scott said it all in 
regards to our feelings, as well.
    Mr. Scott. I have no disagreement as far as the routine 
operation of the plant. We don't want an accidental release. We 
don't want an attack that causes a release.
    EPA takes care of the first part. And we do run our plants 
safely and securely and within EPA guidelines for routine 
operations. I think we need the focus on security to really 
improve the overall security of the sector coming from DHS.
    Mr. Green. I have to admit, I have some concern about two 
Federal agencies dealings with it because we have enough 
trouble now with DHS doing their job. But, you know, EPA does 
have statutory authority already on certain things. But I would 
hope our Federal agencies would work together, instead of you 
having to jump through two hoops. You at least know that these 
agencies are on the same page.
    Mr. Shimkus. With that--and I would just weigh in in 
saying, obviously I don't think the general duty clause has 
relevance in plant security issues.
    So, with that, we appreciate the testimony and the second 
panel coming.
    All members of the subcommittee have 5 days to submit 
opening statements, have 10 days to submit written questions.
    One letter from the American Fuels and Petrochemical 
Manufacturers is inserted into the record. Without objection, 
so ordered.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. The hearing is now adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
